           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



        THE SOCIAL SECURITY
  ADMINISTRATION’S PROCEDURES FOR
   ADDRESSING EMPLOYEE-RELATED
      ALLEGATIONS IN REGION V

     August 2004   A-05-04-14086




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                         SOCIAL SECURITY

MEMORANDUM

Date:   August 30, 2004                                                                  Refer To:

To:     James F. Martin
        Regional Commissioner
         Chicago

From:   Assistant Inspector General
         for Audit

Subject: The Social Security Administration’s Procedures for Addressing Employee-Related
        Allegations in Region V (A-05-04-14086)


        OBJECTIVE

        Our objectives were to determine whether the Chicago Regional Office (RO) complied
        with the Social Security Administration’s (SSA) policies and procedures for addressing
        employee-related allegations and referred all employee-related allegations that should
        have been referred to the Office of the Inspector General (OIG).

        BACKGROUND
        SSA receives various types of allegations related to its programs, the misuse of Social
        Security numbers (SSN) and employee conduct. SSA receives allegations from
        employees, the public, congressional inquiries, internal security reviews, and the OIG.
        Allegations that involve actions on the list of alleged or suspected employee criminal
        violations must be referred to the OIG.1 This list is attached as Appendix D. Allegations
        concerning SSA employees are significant because of the potential losses to SSA’s
        programs and the corresponding negative public impact. In determining the validity of
        allegations, SSA is required to obtain sufficient evidence to support or remove suspicion
        that criminal violations may have been committed.2 SSA’s policy states:

                 “Prior to referral to the OIG, Office of Investigations Field Division, each potential
                 violation and allegation must be developed by the field office, processing center,


        1
            SSA, Program Operations Manual System (POMS), GN 04112.005 B.
        2
            SSA, POMS, GN 04110.010 A.
Page 2 – James F. Martin

          or other SSA office to the point where enough evidence has been secured to
          either remove suspicion or substantiate the violation.”3

In the Chicago RO, the Office of the Regional Commissioner (ORC) and the Center for
Security and Integrity (CSI) review employee conduct and program-related allegations.
The ORC reviews service complaints, which do not appear to involve fraud. CSI
reviews all allegations that appear to involve fraud or employee misconduct. CSI is also
responsible for supporting field office managers in developing potential fraud issues by
using computer system analysis and providing other technical support. Cases involving
employee misconduct that are not potential criminal violations are referred to the Center
for Human Resources’ (CHR) Employee Relations Staff for adverse actions. The ORC
and CSI workflow processes are illustrated in Appendix C.

We reviewed 90 employee-related allegations referred to the Chicago RO during Fiscal
Years (FY) 2001 through 2003. Of the 90 employee-related allegations, 79 allegations
were referred by OIG and 11 allegations were referred from sources other than OIG.
See Appendix B for the scope and methodology of our audit.

RESULTS OF REVIEW
For 63 of the 90 employee-related allegations we reviewed, the Chicago RO generally
complied with its procedures to address the allegations and refer potential criminal
violations to OIG. However, for the remaining 27 allegations we were unable to
determine if the Chicago RO complied with its procedures and referred potential
criminal violations to OIG because there was insufficient documentation to ascertain
whether these allegations were properly developed and resolved. We also found that
the Chicago RO did not:

      •   Track and account for all allegations received from OIG and other sources.

      •   Provide OIG with the results of its review of five allegations within the required
          90-day period.

      •   Provide OIG with the results of its review of five allegations.




3
    SSA, POMS, GN 04110.010 B.
Page 3 – James F. Martin

RETENTION OF CASE DEVELOPMENT DOCUMENTATION

The Chicago RO did not provide sufficient development documentation for us to
determine if it investigated and resolved 27 of the 90 employee-related allegations we
reviewed. Of the 27 allegations, 25 allegations were received from the OIG and
2 allegations were received from other sources. For 5 of the 25 allegations referred by
OIG, the Chicago RO could not locate any development documentation. For the
remaining 20 allegations, the development documentation provided by the Chicago RO
was not sufficient for us to determine if the allegations were fully developed or properly
resolved within the required timeframes, as discussed below.

   •   For seven allegations,                   Adequacy of Documentation
       the ORC responded                           by Allegation Source
       that it had not found
       evidence of employee
       fraud or criminal wrong                  70
       doing. However, the
       documentation did not
                                                60
       reflect what actions
       were taken to conclude
       that the allegations                     50
       were unsubstantiated.

   •   For nine allegations,                    40
       there was no evidence
       that action was taken
       to determine whether                     30
       the allegations were
       properly resolved. The
                                                20
       ORC maintained only
       the OIG referral e-mail.
                                                10
   •   The ORC could not
       document when it
       received two                              0
       allegations from the                             Insufficient Documentation  Adequate
       OIG or responded to                            Documentation Not Available Documentation
       OIG on one allegation.                              20               5            54
                                      OIG Referrals
       In addition, the ORC
                                      Other Sources         2               0            9
       could not locate its
       response for one                                     Other Sources       OIG Referrals
       allegation.
Page 4 – James F. Martin

We also found that CSI did not adequately document its development for 2 of the
11 allegations received from sources other than OIG. The two files contained audit trail
or tracking data, but lacked sufficient evidence to support whether the allegations were
properly resolved and referred to OIG. Subsequently, CSI staff informed us that neither
allegation was referred to OIG because (1) one allegation was unsubstantiated and did
not need to be referred to OIG and (2) the case development did not result in a category
2B or 3 sanctions violation;4 instead, the employee received an adverse action.

The Region should maintain sufficient evidence to document that employee-related
allegations are properly handled and developed. The lack of documentation limits
management’s ability to readily determine whether appropriate actions were taken to
resolve the allegations. Also, insufficient documentation hampers management’s ability
to identify recurring problems related to certain SSA locations or employees. Finally,
because documentation to support the development of 27 allegations was not available,
we could not determine whether the allegations were valid or should have been referred
to the OIG.

To address this issue, the Regional Commissioner implemented a retention policy in
June 2004, which states that OIG allegation documentation is to be retained for 3 years,
and in a separate file from other action items. The policy requires that completed
responses include the action item control sheet, the allegation referral e-mail, the
Chicago RO response, and any evidence of development and/or final action.

TRACKING AND ACCOUNTING FOR ALL ALLEGATIONS RECEIVED

We found that the Chicago RO procedures for tracking and monitoring employee-
related allegations do not require that all allegations be logged or entered into a
centralized database for tracking purposes. Rather, the ORC uses two systems to track
OIG allegations received, though neither system contains a complete listing of all
allegations received. The ORC tracks employee-related allegations received from OIG
in the Correspondence Control System, except those received by regular mail, which
are controlled in a manual log. To properly monitor all allegations received by OIG,
ORC must compile a summary of both control lists, which involves a careful review of
the subject line for the allegations recorded in the manual log. Yet, the ORC did not
provide a complete list of OIG allegations because the file we received was generated




4
  SSA, Memorandum from the Deputy Commissioner for Human Resources, Sanctions for Unauthorized
Systems Access Violations, dated March 2, 2000. SSA has prepared a set of sanctions to inform
employees and managers of the importance of maintaining the security of the information in SSA
computer systems records and of the consequences for various types of systems security violations. A
category 2B sanction occurs when an employee improperly accesses a record and discloses the
information to a person who is not entitled to receive that information. A category 3 sanction occurs when
an employee improperly accesses a record for personal gain (including, but not limited to monetary gain)
or with malicious intent.
Page 5 – James F. Martin

from the Correspondence Control System. In fact, our review found that only 50 of the
79 OIG allegations were tracked using either the Correspondence Control System or
the manual log.

In addition, CSI provided information to substantiate their review of 11 employee-related
allegations received from sources other than the OIG during our audit period.5
However, CSI staff stated that all allegations received are not logged or recorded. As a
result, we could not independently verify that the cases we reviewed represented the
total population of all the employee-related allegations received from sources other than
the OIG during our audit period.

Federal regulations prescribe that management controls should ensure access to
resources and records is limited to authorized individuals and transactions are promptly
recorded, accounted for, and properly classified.6 Federal internal control standards call
for policies, procedures, techniques and mechanisms to help enforce management’s
directives, address risks and to record, properly classify and account for transactions
and events.7 The present controls do not quickly provide management with information
that identifies the total number of allegations received, investigated, responded to, or
the frequency of the employees or components involved. Without this information,
management’s ability to identify issues needing attention is limited. Furthermore,
maintaining an adequate control system could assist the Chicago RO to ensure
appropriate follow-up, eliminate duplication of efforts, and allow for the establishment of
management information related to allegation trends.

TIME REQUIREMENTS TO COMPLETE REFERRALS

OIG requires the SSA component receiving an allegation referral from the OIG Hotline
to respond with the results of its findings within 90 days, explaining what actions were
taken on the allegation and reporting any monetary recoveries or savings realized. We
identified five allegations where the ORC’s response to the OIG exceeded 90 days.
These cases were open for an average of 147 days, ranging from a low of 100 days to a
high of 212 days. Also, because the ORC did not provide sufficient development
documentation for 25 allegations referred by the OIG, we were unable to determine if
the 90-day requirement was met on these allegations.




5
 The CSI received, reviewed and monitored 22 sensitive cases, or allegations, during our audit period.
We reported on 11, since the remaining allegations involved either non-SSA employees or were part of
an open OIG investigation.
6
  Office of Management and Budget Circular, A-123, Attachment II, Establishing Management Controls
(as revised June 21, 1995).
7
 Standards for Internal Control in the Federal Government, Government Accountability Office,
GAO/AIMD-00-21-3-1 ps. 11, 12 and 15.
Page 6 – James F. Martin

OUTSTANDING ALLEGATION REFERRALS

As of May 2004, the ORC had not provided OIG’s Allegation Management Division with
the results of its findings on five allegations, although the allegations were open longer
than 90 days. For one of the five open allegations, ORC provided us with
documentation that demonstrated sufficient resolution of the case. For the remaining
four open allegations, ORC could not provide documentation to support the
development of the allegations or justify why it had not responded to OIG within the
required 90-day time period. Accordingly, we could not determine whether the
allegations were properly investigated. While we recognize that some allegations may
require an extended period of time to develop, ORC should monitor resolution time
frames to ensure adherence to the required 90-day period or document why the 90-day
timeframe could not be met.

CONCLUSION AND RECOMMENDATIONS
Our review found that the Chicago RO’s procedures for addressing employee-related
allegations could be improved to better ensure all allegations are recorded, developed,
and timely resolved. Also, the procedures should ensure that adequate information is
maintained to document the investigation and resolution of employee allegations.

Accordingly, we recommend the Chicago RO:

   1. Implement an allegation control process that documents the receipt,
      development, and disposition of all allegations.

   2. Establish and monitor time frames for reviewing and resolving employee-related
      allegations to ensure that they are addressed within a 90-day period.

   3. Provide OIG the results of its findings on the five allegations that remain open.


AGENCY COMMENTS
In commenting on our draft report, SSA generally agreed with our recommendations
and stated that a new system is being developed to track and control employee-related
allegations. With regards to our third recommendation, SSA provided additional
information on the results of its findings on the allegations we identified as still open in
the OIG’s Allegation Management Division’s tracking system. See Appendix E for the
full text of SSA’s comments.
Page 7 – James F. Martin

OIG RESPONSE
We acknowledge the additional information that SSA provided on the results of its
review of the five employee-related allegations that are still open in the OIG’s allegation
tracking system. We will provide this information to our Allegation Management
Division.




                                                 S
                                                 Steven L. Schaeffer
                              Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Flowcharts

APPENDIX D – Employee Violations

APPENDIX E – Agency Comments

APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                 Appendix A
Acronyms
AMD        Allegation Management Division
AUSA       Assistant United States Attorney
CHR        Center for Human Resources
CSI        Center for Security and Integrity
ERT        Employee Relations Team
FY         Fiscal Year
GAO        Government Accountability Office
OIG        Office of the Inspector General
ORC        Office of the Regional Commissioner
POMS       Program Operations Manual System
RO         Regional Office
SSA        Social Security Administration
SSN        Social Security Number
                                                                        Appendix B
Scope and Methodology
We reviewed employee-related allegations received by the Chicago Regional Office
(RO) in Fiscal Years (FY) 2001 through 2003. For this period, we identified and
reviewed 79 allegation referrals from the Office of the Inspector General (OIG) and
11 employee-related allegations from sources other than the OIG. Additionally, we
selected 90 adverse actions processed by the Center for Human Resources’ (CHR)
Employee Relations Staff to identify severe actions that may be related to possible
criminal violations. We reviewed 89 adverse action files, since the RO had reversed
one adverse action and properly expunged any reference of the suspension from the
employee’s record. Based on our review of adverse action files, we did not find any
potential criminal offenses that were not reported to the OIG.

To accomplish our objectives, we:

   •   Reviewed the following criteria:
       • Office of Management and Budget Circular A-123, Management
         Accountability and Control
       • Office of Personnel Management, Standards of Ethical Conduct for
         Employees of the Executive Branch
       • Social Security Administration (SSA), Program Operations Manual System
       • SSA, Administrative Instructions Manual System
       • SSA, Annual Personnel Reminders.

   •   Obtained a list of 79 employee-related allegations processed by the OIG and
       referred to the Chicago Office of the Regional Commissioner (ORC) during
       FYs 2001 through 2003.

   •   Interviewed officials within the ORC, Center for Security and Integrity (CSI), and
       the CHR in Chicago, Illinois.

   •   Reviewed 22 allegations that CSI received, reviewed and monitored as sensitive
       cases. We reported on 11 since the remaining allegations involved either non-
       SSA employees or were part of an open OIG investigation.

   •   Reviewed ORC and CSI control logs and documentation for the development of
       evidence related to allegations received from the OIG and other sources.

We performed field work at the SSA RO in Chicago, Illinois in March and April 2004.
We determined that the data provided by the ORC was sufficiently reliable to meet our
audit objectives and facilitated the development of issues presented in the report. The
entity reviewed was the Chicago RO under the Deputy Commissioner for Operations.




                                           B-1
We conducted our review in accordance with generally accepted government auditing
standards.

The 90 allegations we reviewed are summarized below by the adequacy of
development documentation and fiscal year.


                           Adequacy of Documentation
                                 by Fiscal Year

                  40

                  35

                  30

                  25

                  20

                  15

                  10

                   5

                   0
                         FY 2001              FY 2002            FY 2003
         Adequate          10                   25                  28
         Insufficient      11                    8                  3
         Not Found          3                    1                  1

                                Not Found     Insufficient   Adequate




                                        B-2
             Appendix C
Flowcharts
WORKFLOW FOR ALLEGATION MANAGEMENT DIVISON (AMD) REFERRALS


Office of the Regional Commissioner (ORC) receives Office of the Inspector
                     General (OIG) allegation via email



                  Executive Assistant reviews the
                            allegation



                      Is it a service complaint?         Yes



                                 NO                       ORC enters the allegation into
                                                          the Regional Correspondence
                                                                Control System
                       Is it a fraud allegation?
                                                             ORC routes allegation to
                                                           responsible Regional Office
                                 Yes
                                                                (RO) component


          ORC routes allegation to the Center for
        Security and Integrity (CSI) for development     Component resolves complaint
                                                         and completes AMD Allegation
                                                             Response Attachment
                    CSI enters the allegation into
                   the Regional Correspondence
                          Control System
                                                         Allegation routed back to ORC
                                                               for return to AMD


                   CSI investigates allegation and
                    completes AMD Allegation
                       Response Attachment



                  If necessary, referral to OIG for
                possible criminal investigation made



                                AND



                      Allegation returned to AMD




                                           C-1
          WORKFLOW FOR EMPLOYEE FRAUD CASES



      Potential fraudulent activity is reported to the CSI



          CSI analyzes referral and evidence
            such as audit trail information.



             CSI determines potential
                                                        NO               Stop
           employee fraud/violation exists?


                            Yes


                                                         OIG conducts investigation
               CSI refers case to OIG for                and finds potential criminal
             potential criminal investigation            violation?


CSI receives report of findings from OIG and                 NO                 Yes
 forwards copy to the Employee Relations
                Team (ERT)
                                                        OIG determines whether to
                                                      pursue criminal prosecution and
              ERT contacts manager with               consults with the Assistant U. S.
            information on the findings and,                 Attorney (AUSA)
               if necessary, management
                   conducts additional
                    investigation. ERT                       CSI receives report or other
              recommends administrative                       information from OIG and
                           action.                              forwards report to ERT


            ERT assists manager with letter             ERT contacts manager and, if
              of proposed administrative                necessary, manager conducts
                        action                           additional investigation and
                                                        ERT recommends appropriate
                                                         action. Manager proposes
                ERT assists the deciding                            action.
             official with the decision letter

                                                            ERT assists the deciding
                                                         official with the decision letter




                                      C-2
                                                                                           Appendix D
Employee Violations
LIST – EMPLOYEE POTENTIAL VIOLATIONS (Program Operations Manual
System, GN 04112.005D)
Employee violations include, but are not limited to situations in which an employee is suspected of willfully:
    •   acting as an agent or attorney for prosecuting any Social Security claim before the Commissioner
        while an employee;
    •   disclosing without authorization any confidential information in violation of the Social Security Act
        or the Privacy Act of 1974;
    •   obtaining or attempting to obtain confidential information under false pretenses;
    •   making or causing to be made any false representation concerning the requirements of the Social
        Security Act or related provisions of the Internal Revenue Code;
    •   asking for, accepting, or agreeing to accept anything of value from a third party in return for
        executing or influencing the performance of official duties;

    •   participating in the planning or execution of any scheme or other activity under which a financial or
        other advantage improperly accrues or could accrue to any person or organization at the expense
        of the Government or parties with whom the Government may contract or otherwise deal;
    •   stealing or otherwise illegally disposing of refund remittances, Government checks, cash, directly
        deposited funds, or other obligations;

    •   illegally generating Social Security checks or depositing funds electronically to oneself or another;
    •   stealing or mutilating Government records, or destroying or removing them without authorization;
    •   violating conflict-of-interest laws as described in the Ethics in Government Act, the Standards of
        Ethical Conduct for Employees of the Executive Branch, and the SSA Guide on Employee
        Conduct;
    •   making or causing to be made any false statement or representation about wages, earnings, or
        self-employment income in connection with claims or the maintenance of earnings records;

    •   making or causing to be made any false statement or representation of a material fact in an
        application for payments or for a disability determination, or at any other time for use in
        determining rights to payments;
    •   concealing or failing to disclose a fact or event affecting initial or continued eligibility for payment;
    •   furnishing or causing to be furnished false information about identity in connection with a claim,
        issuing a Social Security number, or maintaining an earnings record;
    •   selling Social Security numbers/cards; or
    •   unlawfully disclosing, using, or compelling the disclosure of a Social Security number.
                  Appendix E
Agency Comments
                                    SOCIAL SECURITY
MEMORANDUM

Date:             August 23, 2004                               Refer To:     S2D5G5
                                                                              AM-28

To:               Assistant Inspector General for Audit

From:             Regional Commissioner
                  Chicago

Subject:          The Social Security Administration’s Procedures for Addressing Employee-Related
                  Allegation in Region V (A-05-04-14086) (Your Memorandum Dated July 30,
                  2004)--REPLY


We welcome the Assistant Inspector General’s report evaluating our control and response
concerning employee-related allegations.       As responsible stewards of the public’s trust, we
thoroughly investigate every allegation concerning employee misconduct. Any suggestions to
improve our controls over this process are appreciated.

The audit report concludes that the Chicago Regional Office generally complied with procedures to
address allegations, the report contains three recommendations:

      1. Implement an allegation control process that documents the receipt, development, and
         disposition of all allegations.

      2. Establish and monitor time frames for reviewing and resolving employee-related allegations
         to ensure that they are addressed within a 90-day period.

      3. Provide the Office of the Inspector General with the results of 5 allegations that were found
         to be open.

To address the first two recommendations, the Office of the Regional Commissioner is now
working with the Centers for Security and Integrity and Systems and Automation to develop an
Access database to track and control employee-related allegations. This will be an internet-based
application with limited access. As allegations are received, they will be keyed into the database
which will track the status of the investigation as well as record the final disposition of the case.
The database will be queried weekly to generate reports of outstanding investigations. This will
ensure that all investigations are addressed before the close of 90 days.

Your third recommendation asks for results of our findings on 5 “open” allegations. We are
confident that each of these 5 allegations was fully developed, and that responses were sent to
OIG timely. If OIG considers the cases “open” because the documentation provided was not
                                                  E-1
sufficient, it would be helpful for OIG to provide specific feedback as to why the provided
documentation was not sufficient.

Of the 5 allegations, only 2 indicated the possibility of employee fraud:

   •   Allegation No. T103536 (November 2000)
       On page 5 of the report, referring to this allegation, you state, “ORC provided us with file
       documentation that demonstrated sufficient resolution of the case”. Considering this, we
       are not clear as to what further action we need to take on this case. We do have all of the
       file documentation that we can re-submit, if needed.

   •   Allegation No. P111935 (June 2001)
       There is no indication or evidence that this allegation was substantiated. We attempted to
       contact the named subject, as well as management at the time the allegation was
       received. We are unable to re-contact the complainant, since it was an anonymous
       allegation.

The other 3 allegations involved service complaints, as opposed to allegations of employee
fraud. Despite the lack of documentation as to the resolution of the specific allegations, review of
SSA records indicates that all 4 of theses “open” allegations have been dealt with appropriately.
Also, each of these were received more than 2 years before the audit began. Prior to the change
in our retention policy, documentation of these allegations would not have been retained, except
in instances involving actual allegations or findings of fraud. Because the cases do not involve
employee fraud, we do not feel that reconstructing the actual documentation of our resolution of
the allegations is necessary.

   •   Allegation No. T103610 (October 2000)
       The wages that the claimant alleged were not his have been removed from the record.
       Review of the record does not point to any indication of employee fraud.

   •   Allegation No. P108433 (April 2001)
       Review of our records indicates the claimant has received all benefits she is entitled
       to. No indication of employee fraud.

   •   Allegation No. P203864 (March 2002)
       The Modernized Development Worksheet (MDW) for this complainant documents
       ongoing conversations since 2000. In response to the allegation received in March 2002,
       an appointment was set up for her with the Akron, Ohio field office to discuss her issues
       and to review her folder. The claimant did not cooperate and did not provide necessary
       documentation. Her SSI record has since terminated due to her failure to cooperate.
       Review of the record does not point to any indication of employee fraud.

Questions regarding this memorandum may be directed to Robert E. Coplin, Center Director,
Management and Operations Support, CSI, at (312) 575-4120.


                                                      James F. Martin

                                                E-2
                                                                         Appendix F
OIG Contacts and Staff Acknowledgments
OIG Contacts
   Mark Bailey, Director, Central Audit Division (816) 936-5591

   Teresa S. Williams, Audit Manager, Central Audit Division (312) 353-0331

Acknowledgments
In addition to those named above:

   Elizabeth Juárez, Lead Auditor

   Sherman Doss, Auditor

   Cheryl Robinson, Writer-Editor

For additional copies of this report, please visit our web site at www.ssa/gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-05-04-14086.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.

                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.

                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.

                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.

                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
